V
Docket No.: 20-6395
Supreme Court of the United States
Howard Griffith,
Pro Se,
Defendant/Petitioner

vs

New York State,
Represented by William J. Fitzpatrick, Esq.
District Attorney of the State of New York/County of Onondaga
Plaintiffs/Respondents

Supplement for Petition of Writ for Certiorari

RfcCEIVlD10 Yard Griffith, pro se
DEC -f 2U2|j29( 3 James Street, # 1R
Syracuse, NY 13206
315-741-7420

Question Presented
Could the dismissal of Defendant's underlying conviction result in a violation of
his Constitutional Rights?

"Howard Griffith v New York, No. 20-6395" and "Howard Griffith, et al. v New
York, 5:20-cv-1312 (GLS/ML)" need to be reviewed together.

List of Parties
Defendant/Petitioner, Howard Griffith
Plaintiffs/Respondents, People of the State of New York/County of Onondaga

ii

TABLE OF CONTENTS
Question Presented: i
List of Parties: ii
Jurisdiction: 1
Opinions Below: 1
Constitutional and Statutory Provisions Involved: 2
Concise Statement: 5
Reasons for Granting Relief: 5
• New York State's Liabilities: 5
• The People of the State of New York, County of Onondaga, Should not be
Immune from Liabilities: 8
• Coram Nobis or Habeas Corpus?: 10
• Defendant's Right to Confidentiality: 11
Conclusion: 12
INDEX TO THE APPENDIX
Howard Griffith, et al. v New York, 42 U.S. Code Section 1983, 5:20-cv-1312
(GLS/ML): Case Dismissed: October 27, 2020: la
Howard Griffith v Onondaga County, NY Civil Practice Law and Rules Article 78,
SU-2020-005851: Order to Show Cause Denied: October 30, 2020: 3a
Howard Griffith, et al. v New York, 42 U.S. Code Section 1983, 5:20-cv-1312
(GLS/ML): Case Reinstated: November 12, 2020: 6a

iii

TABLE OF AUTHORITIES
Cases
• People v Griffith, 2001-0883-1: 2, 8, 9
• Howard Griffith v Onondaga County, NY Civil Practice Law and Rules
Article 78, SU-2020-005851:1,3, 6-10
• Howard Griffith, et al. v New York, 42 U.S. Code Section 1983, 5:20-cv1312 (GLS/ML): i, 1-2, 4-12
• People v Griffith, 166 AD3d 1518 (4th Dept 2018): 2, 4, 5,11,13
• Department of Commerce v. New York, 588 U.S.

(2019): 5-6

Sex Offender Registration Act (SORA) NY Correction Law Article 168
• Penalties, NY Correction Law Section 168-t: 2, 6, 9,10
• Immunity from Liability, NY Correction Law Section 168-r: 4, 9
• Sex Offender Modification Proceeding, NY Correction Law Section 168o(2): 11
• Certification as a Sex Offender, NY Correction Law Section 168-d(l): 2

Criminal Statutes
• Direct Appeals, NY Criminal Procedure Law Section 450.10(1): 11
• Rape 1st, NY Penal Law Section 130.35(1): 2, 5
iv

Civil Practice Law and Rules (CPLR)
• Proceeding Against Body or Officer, NY Civil Practice Law and Rules
Article 78: 1, 3,6-10
• Mistakes, Omissions, Defects, and Irregularities, NY Civil Practice Law and
Rules Section 2001: 11

United States Code (USC)
• Civil Action for Deprivation of Rights, 42 US Code Section 1983: i, 1-2, 412
• District court; filing and miscellaneous fees; rules of court, 28 U.S. Code
Section 1914(a): 2
• Proceedings In Forma Pauperis, 28 U.S. Code Section 1915(a): 2
• Screening, 28 U.S. Code Section 1915A: 9
• Prisoner (Definition) 28 U.S. Code Section 1915(h): 3,9,10
• Refusal, by owners, proprietors, etc., to assist census employees, 13 U.S.
Code Section 223: 2
• Suspension of the Use of Tests or Devices in Determining the Eligibility to
Vote, 52 U.S. Code Section 10303: 3-4

NY Real Property Law
• Warranty of Habitability, NY Real Property Law Section 23 5-B: 3,7,12

NY County Law
• NY County Law Section 700(5), District Attorney Powers and Duties,
Confidential Secretary: 3, 9

NY Civil Rights Law
• Confidentiality, NY Civil Rights Law Section 50-b: 3,12

Common Law Writs
• Writ of Coram Nobis: 11-12
• Writ of Habeas Corpus: 11-12

vi

Jurisdiction
Howard Griffith, et al. vNew York, 5:20-cv-1312 (GLS/ML) involves actions
taken in the United States District Court of the Northern District of New York,
pursuant to 42 U.S. Code Section 1983, involving remedies with regard to his sex
offender registry. The remedy with regard to "Howard Griffith v New York, No.
20-6395" applies to the actions involving separate [remedies], substantive to those
[remedies] which apply to Howard Griffith, et al. v New York, 5:20-cv-1312
(GLS/ML). Each of these cases develop separate errors which apply to Defendant's
sex offender registry. These remedies apply to merits developed that Defendant's
sex offender registry is invalid in two completely different manners, in two
completely different matters. Dismissal of Defendant's underlying conviction may
establish precedent to provide Defendant's Constitutional Rights would be violated.

Opinions Below
Howard Griffith v Onondaga County, NY Civil Practice Law and Rules Article 78,
SU-2020-005851, taken September 16, 2020, Order to Show Cause denied on
October 30, 2020, on the grounds that the cause for the petition provided no merit
for it to have been provided for poor person relief.
Howard Griffith, et al. vNew York, 42 U.S. Code Section 1983, 5:20-cv-1312
(GLS/ML), taken October 22, 2020 with Order to Show Cause for Temporary
Restraining Order. Motion dismissed and filed on October 27, 2020, pending errors
1

with regard to filing fees with regard to the error to provide it with a complaint.
Nevertheless, determination was provided for the merit being satisfied with regard
to the motions provided for in forma pauperis relief, pending the merit provided
Defendant is a prisoner pursuant to 28 USC Sections 1914(a) and 1915(a). The
Motion has been reinstated as of November 12, 2020.
People v Griffith, 2001-0883-1 Defendant was convicted of Rape 1st, NY Penal
Law Section 130.35(1) on January 10, 2002.
People v Griffith, 166 AD3d 1518 (4th Dept 2018): Adjudication was provided
Defendant was denied effective assistance of counsel, via direct appeal, taken with
a special proceeding, more than seven years after he had completed his sentence.
Constitutional and Statutory Provisions Involved
NY Correction Law Section 168-d(l) Defendant was certified as a Sex Offender on
January 29, 2002:
NY Correction Law Section 168-t, Defendant would be subject to Penalties for
failure to register appropriately as a sex offender which includes the application of
an appropriate address which is substantive with the mishandling of the census and
absentee ballots referring to Defendant's household having more than one address
and additional people listed as residents in his household.
13 U.S. Code 223 Refusal, by owners, proprietors, etc., to assist census employees:
Defendant's landlord mishandled the census providing errors with regard to the
address to be provided for Defendant's sex offender registration.

2

NY Real Property Law Section 235-B, Warranty of Habitability: Defendant's
landlord must provide Defendant was not to have been the subject with regard to
any conditions on the policy which would be deemed to have placed himself in
danger, hazard or detriment to threaten his life, health, or safety.
28 U.S. Code Section 1915(h): Defendant has been determined to be a "prisoner"as
defined under this statute upon which he would be subject to penalties with the
prosecution of the Onondaga County District Attorney.
NY Civil Rights Law Section 50-B, Confidentiality: The United States District
Court of the Northern District of New York provided its own personal attachments
evident there was concern legal documents related to Howard Griffith, et al. v New
York, 5:20-cv-1312 (GLS/ML) may have been mishandled. Defendant has not
recognized this to have happened. Nevertheless, since then, Defendant has
witnessed the mishandling of his mail regarding: "Howard Griffith v New York,
No. 20-6395" which is a case that involves documents which are to be protected by
this law.
NY County Law Section 700(5), The District Attorney should have been afforded
the "Powers and Duties" to have served as "Confidential Secretary" upon his own
pleasure with regard to his landlord's violation of Warranty for Habitability, NY
Real Property Law Section 235-B, upon his notice with Defendant's personal
service of Howard Griffith v Onondaga County, SU-2020-005851,
52 U.S. Code 10303, Suspension of the Use of Tests or Devices in Determining the
Eligibility to Vote may be necessary to have been ambiguously interpreted to
3

determine if Defendant should be provided his declaration, and all of these
remedies have to be reviewed to determine that remedy, to determine that it is
necessary for Defendant's conviction to be relieved in federal courts.
Immunity from Liability, NY Correction Law Section 168-r, If New York State
were to provide relief from Defendant's underlying conviction, an ex parte order
would be developed to provide that the civil action pending in the United States
District Court for Defendant to be provided relief from violation of his Civil Rights
would be deemed to be an error of the most fundamental character with the
consequence for Defendant to not be able to obtain that relief in the separate action
as Defendant's sex offender registry is substantive to a separate remedy in each
action.
Declaration was an intent to address how Howard Griffith, et al. v New York, 42
U.S. Code Section 1983, 5:20-cv-1312 (GLS/ML), was intended to obtain a
declaration substantive to how states abuse the 10th Amendment Right of the
Constitution of the United States as an abusive power over the rights of its citizens.
However, the 9th Amendment Right of the United States Constitution does not
provide that authorization.
4th, 5th, 6th, and 14th Amendment Rights of the Constitution of the United States
provide Defendant was denied effective assistance of counsel (People v Griffith,
166 AD3d 1518 [4th Dept 2018]) and Defendant's underlying conviction needs to
be annulled, vacated, and set aside.
5 th and 14th Amendment Rights of the Constitution of the United States support
due process is a substantive element, substantive to both "Howard Griffith, et al. v
4

New York, 5:20-cv-1312 (GLS/ML) and "Howard Griffith v New York, No.
20-6395" providing this procedure satisfies a process to afford Defendant not be
subject to procedural default to support Defendant's underlying conviction for
Rape 1st, NY Penal Law Section 130.35(1) to be dismissed.
Concise Statement
Defendant's right to effective assistance of counsel was violated at the time of his
conviction. However, if Defendant were to have his conviction dismissed by New
York State, it may result in a violation of his constitutional rights.

Reasons for Granting Relief
I) New York State’s Liabilities Just as much as New York State should have been
liable for protecting Defendant from Penalties pursuant to NY Correction Law
Section 168-t with regard to errors involving the census and invalid identities of
people identified as residing in his household, New York State should have been
liable for protecting his voting rights with regard to errors involving the census and
invalid identities of people identified as residing in his household. Merit provides
the United States has to provide the relief to dismiss his underlying conviction with
regard to Howard Griffith v New York, No. 20-6395, "as it applies" to the
substantive decision in "People v Griffith, 166 AD3d 1518 (4th Dept 2018)" to
provide the declaration with regard to Howard Griffith, et al. v New York, No.
5:20-cv-1312 (GLS/ML) "as it applies" to the substantive decision in "Department
5

of Commerce v. New York, No. 18-966, 588 U.S.

(2019)". If not, the address

provided for Defendant's sex offender registry will never have merit and neither
will his vote. If New York State had the authority to dismiss Defendant's
underlying conviction, the error New York State made, failing to protect
Defendant's voting rights could not be provided for a declaration, because the
omission Defendant had taken his action with to provide substance that his address
needed to be corrected, via special proceeding, pursuant to NY CPLR Article 78,
would be null and void. Nonetheless, if the United States provided that relief, the
declaration could still be made as the liability would still stand. The action taken
via 42 USC 1983 requesting Declaration that Defendant's voting rights were being
violated was substantive with errors regarding the census. This was consequential
to the remedy with regard to the omission being provided for Defendant's sex
offender registry to take action via special proceeding pursuant to CPLR Article
78. The omission was to develop the process to preserve the cause that Order could
be provided, via the court, to have the authorities take action to correct the address
with regard to Defendant's sex offender registry. This was necessary for Defendant
to be protected from penalties pursuant to Correction Law Section 168-t, as these
were also substantive with errors with regard to the census, and because New York
State did not correct the errors addressed pursuant to CPLR Article 78, those
remedies were preserved to have been taken via 42 USC Section 1983. The CPLR

6

Article 78 petition was initially drafted and provided for Defendant's landlord, Jan
Nastri, as an Arbitration he had prepared as an Arbiter providing he could take the
action to the court if there were any errors with regard to the policy for his home
address, substantive to NY Real Property Law Section 235-B to provide substance
that Defendant would not be subject to any conditions which would be dangerous,
hazardous, or detrimental to his life, health or safety upon the liabilities of his
landlord. (This being substantive to a fundamental remedy provided with regard to
a conviction prosecuted by the Onondaga County District Attorney, preserving
Defendant could contact the police instead of defending himself.) Errors with
regard to the census developed the full cause precedent was established that he
could amend the draft to take the action to court, as he presented it with the action,
with the omission provided for his sex offender registry; the nature of the
proceeding fundamental to the information with regard to the Arbitration. With the
State's error with regard to the failure to correct this, character had been preserved
in the nature of the cause to develop a strategy to have it provided for a procedure
in the federal court as Defendant would have to address it with regard to a federal
issue involving violation of voter rights. This was necessary to maintain the
remedy regarding Defendant's requirements to have properly handled the
Arbitration as an Arbiter for his own personal safety along with the safety of his
roommate. With New York State dismissing Defendant's sex offender registry

7

pursuant to People v Griffith, 2001-0883-1, it would develop substance for an ex
parte order with regard to the special proceeding taken via CPLR Article 78,
SU-2020-005851, because both cases are substantive to the causes New York State
was liable to correct with regard to Defendant's sex offender registry. Therefore,
the Nature of the Cause in Howard Griffith v Onondaga County, SU-2020-005851
would be null and void, providing the remedy for the Nature of the Proceeding in
Howard Griffith, et al. v New York, 5:20-cv-1312 (GLS/ML) to be null and void.
With this, the substance would be developed for Howard Griffith, et al. v New
York, 5:20-cv-1312 (GLS/ML) to be an error of the most fundamental character.
Nevertheless, with the United States Supreme Court providing that relief, that
process would still be preserved to obtain the declaration as New York State would
not have satisfied any of its liabilities. This would be necessary to preserve
Defendant's civil rights.

II) The People of the State of New York, County of Onondaga, Should not be
Immune from Liabilities Defendant served a copy of his Civil Practice Law and
Rules Article 78 Petition, Howard Griffith v Onondaga County, SU-2020-005851,
on the District Attorney of Onondaga County in New York State on September 17,
2020, at 11:07 am. This may provide that the Onondaga County District Attorney
can now be deemed subject to being a party to both actions as a fundamental

8

procedure has been satisfied to join these actions on account that the United States
District Court of the Northern District of New York has confirmed Defendant is a
"Prisoner" as defined in 28 USC Section 1915(h), substantive to prosecution by the
district attorney of Onondaga County in New York State, with regard to penalties
pursuant to NY Correction Law Section 168-t, precedented on the most
fundamental remedy with regard to People v Griffith, 2001-0883-1. It can be
determined Defendant was defined as a prisoner via Howard Griffith, et al. v New
York, No. 5:20-cv-1312 (GLS/ML) because his motion was placed on the docket
with regard to being screened pursuant to 28 U.S. Code § 1915A, to provide it can
be deemed the United States District Court of the Northern District of New York
has reviewed Defendant's 42 US Code Section 1983 motion to determine it was
feasible. This was provided to the Onondaga County District Attorney in the case
that it may have been necessary for the District Attorney to have served as a
"Confidential Secretary" pursuant to NY County Law Section 700(5), for
Onondaga County, with regard to the action taken with Order to Show Cause for
"Howard Griffith v Onondaga County". This could have established precedent that
Onondaga County and New York State would have been afforded Immunity from
Liabilities pursuant to NY Correction Law Section 168-r, with regard to the
remedies in each of these two cases as the Onondaga County District Attorney
should have been well aware that it was necessary for himself to have addressed

9

this. Nevertheless, failure to address this would have most likely resulted in
Defendant being prosecuted for penalties pursuant to NY Correction Law Section
168-t, after "Howard Griffith v Onondaga County, SU-2020-005851" was denied
Order to Show Cause on October 30, 2020, if Defendant had not preserved the
cause via 42 U.S. Code Section 1983. The United States District Court of the
Northern District of New York should be well aware that Defendant had served a
copy of this because Defendant had provided a stamped copy of "Howard Griffith
v Onondaga County, SU-2020-005851" to be filed with "Howard Griffith, et al. v
New York, 5:20-cv-1312 (GLS/ML)" confirming that it was received by the
District Attorney of New York State, County of Onondaga, at that setting.

Ill) Coram Nobis or Habeas Corpus? Also, because the United States District
Court of the Northern District of New York defines Defendant is a "prisoner"
pursuant to 28 US Code Section 1915(h) with regard to Howard Griffith, et al. v
New York, 5:20-cv-1312 (GLS/ML), it is necessary for the District Court to
provide a judgment with this Petition for Writ of Certiorari to decide whether or
not Defendant's intentions to pursue coram nobis relief with this Petition for Writ
of Certiorari are proper or whether the intentions to obtain his relief should still
have been necessary to have been pursued via habeas corpus. It is necessary for a
"prisoner" to pursue a contest for his underlying conviction with regard to the

10

intentions of writ of habeas corpus if he so pleases. Nevertheless, precedent was
established in the Supreme Court of the State of New York, Appellate
Division/Fourth Department, with "People v Griffith, 166 AD3d 1518 (4th Dept
2018), KA 17-01664" on November 9, 2018, from an appeal taken from a Sex
Offender Modification Proceeding pursuant to New York Correction Law Section
168-o(2), taken as an omission, via direct appeal, pursuant to NY Criminal
Procedure Law Section 450.10(1), upon which the Supreme Court of the State of
New York, Appellate Division/Fourth Department decided to disregard the
omission pursuant to CPLR Section 2001, to deem the appeal to have been
properly taken. New York State does not define a registered sex offender as a
prisoner, and it was New York State who determined Defendant was denied
effective assistance of counsel, via direct appeal with a special proceeding, more
than seven years after Defendant had completed his sentence.

IV) Defendant's Right to Confidentiality Defendant is providing a copy of this
supplement with a copy of his Writ of Certiorari to the United States District Court
of the Northern District of New York with Order to Show Cause to Obtain a
Temporary Restraining Order to Supplement this with Howard Griffith, et al, v
New York, No. 5:20-cv-1312 (GLS/ML) with the intent to obtain a Declaratory
Judgment to provide a decision if this can be supplemented with this case.

11

Defendant will provide that for the District Court with an affidavit, with
attachments, providing that Defendant found his mail opened (the mail from the
Clerk of the Court dated November 20, 2020, addressing Defendant that the
Petition for this action had been docketed) when he received it at the hour of 4:00
pm on November 25, 2020. This affidavit will provide a claim that Defendant's
rights to Confidentiality Pursuant to NY Civil Rights Law Section 50-B are being
violated regarding this case, with regard to the Arbitration Defendant addresses,
with regard to his policy for his home address upon the liability of his landlord
pursuant to NY Real Property Law Section 235-B. The United States District Court
of the Northern District of New York State had provided an envelope as an
additional attachment, as the court's own attachment, on October 26, 2020, to
provide the necessary documents for Defendant to make his complaint. This
provided the evidence for the court's concern of his personal legal documents being
investigated. This was evident with regard to the barcode for the postage being
placed on the envelope to cover the court's return address. Defendant will be
returning that envelope to the United States District Court of the Northern District
of New York for observation.

WHEREFORE, this provides even more substantive elements to support a
procedurally defaulted claim. Evidence exists to prove Defendant is "actually

12

innocent" and the description of the evidence and the location where it can be
found are provided in People v Griffith, KA 17-01664.

Howard Griffith, pro se
2903 James Street, # 1R
Syracuse, NY 13206
315-741-7420

Respectfully Submitted,
.
/

Dated: KJovewber20,^10
Howard Griffith

13

UNITED STATES DISTRICT COU IMDIOmiT‘ND' 0F
NORTHERN DISTRICT OF NEW YORK

ORIGINAL f led
OCT 2 7 2020

AT

_ O'CLOCK
Jolm M, Domuiad, CledT^i~r

Howard Griffith, et al.
vs.

CASE NUMBER: 5:20-cv-1312(GLS/ML)

New York State

ORDER DIRECTING ADMINISTRATIVE CLOSURE
Plaintiffs attempted to commence an action in the Northern District of New York on
Octobei 22, 2020. Plaintiffs have not paid the filing fee for this action, however, they have filed
an In Forma Pauperis Application Fonn ("IFP Application").1
A civil action is commenced in federal district court by filing a complaint. Fed. R. Civ.
P. 3. The statutory filing fee must also be paid at the time an action is commenced, unless the
plaintiffs seek in forma pauperis status. See 28 U.S.C. §§ 1914(a), 1915(a).
WHEREFORE, it is hereby
ORDERED that, because this action was not properly commenced by filing a complaint
consistent with Fed. R. Civ. P. 3, the Clerk is directed to administratively close this action; and it
is further
ORDERED that, if plaintiffs desire to pursue this action, they must so notify the Court
WITHIN THIRTY (30) DAYS of the filing date of this Order and file a complaint; and it is
further

The total cost for filing a civil action in this court is S400.00 (consisting of the civil filing fee of $350.00, see 28 U.S.C.
§ 1914(a), and an administrative fee of $50.00).

!a

ORDERED that upon plaintiffs’ compliance herewith, the Clerk shall reopen this action
and forward it to the Court for review; and it is further
ORDERED that the Clerk serve a copy of this Order on plaintiffs along with a form
complaint packet.
IT IS SO ORDERED.
October 27, 2020
Albany, New York

At a Term of Supreme Court held in and
for the County of Onondaga, in the
City of Watertown, New York on
October 30, 2020

Received
PRESENT: HONORABLE JAMES P. McCLUSKY
Supreme Court Justice

1-11 Gr,

STATE OF NEW YORK
SUPREME COURT COUNTY OF ONONDAGA
t

in the Matter of the Application of
HOWARD GRIFFITH,

^©(P

Petitioner,

\v7

Li

ORDER
Index No. SU-2020-05851

ONONDAGA COUNTY
Respondent
For a Judgment Pursuant to Article 78 of
the Civil Practice Law and Rules.
Howard Griffith has applied to this Court for an Order pursuant to CPLR §1101
granting permission to proceed as a poor person on the grounds that he does not have
sufficient income or assets to pay the filing fees associated with this legal action styled as
a CPLR Article 78 mandamus against the Onondaga County

Mr Griffith’s petition recites that he lives in proximity to an area used for the sale of
illegal drugs and frequent loitering by persons involved in the illegal sale of drugs. Mr
Griffith also details an incident wherein he damaged the vehicle of one of these persons
and ultimately faced criminal charges. Apparently during the criminal proceeding against
him Mr. Griffith raised the warranty of habitability as found in Real Property Law §235-b
claiming that he was “subjected to ... conditions which would be dangerous, hazardous or
detrimental to ... [his] life, health or safety”. It further appears that Petitioner is asking this
Court to compel Onondaga County to recognize these conditions as specifically mentioned
in the criminal proceeding against Mr. Griffith, and to require the enforcement of the law

3c\

by Onondaga County.

In addition to his sworn petition Mr. Griffith has provided an affidavit in connection
with his application to proceed as a poor person that qualifies him as being entitled to
waiver of filing fees and appears to otherwise qualify as a “poor person”. Although
Petitioner qualifies as a poor person, CPLR §1101 (a) requires a Court to review such
applications on their merits. Thus a Court must not rubber stamp them simply because
they are made by poor persons. Sledae v Hesson. 274 AD2d 777 (3rd Dept. 2000).
Implicit in CPLR §1101(a), as a prerequisite to the granting of such relief, is a showing of
merit. Matter of Aaron Joseph. 155 Misc2d 724.

An Article 78 Mandamus to compel is a judicial command to an officer or body to
perform a specified ministerial act that is required by law to be performed. Hamptons
Hosp. & Med. Ctr., Inc, v Moore. 52 NY2d 88 [1981]. Only ministerial acts that involve no
exercise of judgment or discretion are subject to mandamus to compel. Gimorich vBd of
Educ., 306 NY 401 [1954]. Mr. Griffith is asking this Court to compel the Respondent
County of Onondaga to enforce the law in the area of his residence.

"Basic legal

precedent establishes, however, that even if the petitioners proffered evidence oi
non-enforcement of the rule at issue in particular instances, or even in general, the court
is without authority to intervene. Contrary to the petitioner's assertion, the decision whether
and in what instances police power should be exercised is peculiarly and unquestionably
a discretionary function" Juniper Park Civic Ass'n v. City of New York. 2006 NYLJ LEXIS
3016, (See, Mullaney v. Brown, 300 AD2d 307; Havdock v. Passidomo. 121 AD2d 540;
Kerness v. Berle. 85 AD2d 695; Perazzo v. Lindsav. 30 AD2d 179).

An Article 78 mandamus to compel cannot be used to compel the exercise of police
power, and as such the petition is without merit.

Therefore, it is

ORDERED, ADJUDGED AND DECREED that Plaintiff’s application for permission

4~a

to proceed as a poor person pursuant to CPLR1101 is respectfully denied and dismissed;
and it is further

ORDERED, ADJUDGED AND DECREED that this action will be dismissed unless
the Plaintiff reimburses the Onondaga County Clerk's Office for the cost of the index
number and RJI number within 120 days of the date of this order.

Dated: October 30, 2020
at Watertown, New York
ENTER
JAMES P. McGLUSKY
Siipreme Court Justice

5a

CM/ECF LIVE - U.S. District Court - NYND-Dispiay Receipt

https://nynd-ecf.sso.dcn/cgi-bin/DisplayReceipt.pl7109539296362313-L

Seceivec* ! fi/WI**0
VV

'

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to
this e-mail because the mail box is unattended.
NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free electronic copy of
all documents filed electronically, if receipt is required by law or directed by the fder. PACER access fees
apply to all other users. To avoid later charges, download a copy of each document during this first
view ing. However, if the referenced document is a transcript, the free copy and 30 page limit do not
apply.
U.S. District Court
Northern District of New York - Main Office (Syracuse) [NextGen CM/ECF Release 1.3 (Revision 1.3.6)]
Notice of Electronic Filing
The following transaction was entered on 11/12/2020 at 3:35 PM EST and filed on 11/12/2020
Case Name:
Griffith et al v. New York State
Case Number:
5:20-cv-01312-GLS-ML
Filer:
Document Number: 6(No document attached)
Docket Text:
TEXT ORDER REOPENING CASE: This action was administratively closed due to plaintiffs
failure to comply with the filing fee requirements, and plaintiff was directed to respond to the
Order if s/he wished to pursue this action. Plaintiff has now responded. The Clerk is directed
to reopen this action and restore it to the Court’s active docket. So Ordered by Senior Judge
Gary L. Sharpe on 11/12/2020.(Copy served upon pro se plaintiffs via regular mail on
11/12/2020.)(hmr)

5:20-cv-01312-GLS-ML Notice has been electronically mailed to:
5:20-cv-01312-GLS-ML Notice has been delivered by other means to:
Howard Griffith
2903 James Street
#]R
Syracuse. NY 13206

l of 2

Co C\

11/12/2020, 4:07 PiV

jM/ECF

LIVE - U.S. District Court - NYND-Display Receipt

https://nynd-ecf.sso.dcn/cgi-bin/DisplayReceipt.pl7109539296362313-L...

Rebecca Sklaney
2903 James Street
#1R
Syracuse. NY 13206

f2

/a
11/12/2020.4:07 PM

